WAIVER

SUPREME COURT OF THE UNITED STATES

No. [21-298

Bobby Wilson Phoenix Newspapers, Inc., et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

Oo lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Iam not presently a membe of the Bar, of this Court. Should a response be requested, the response
will be filed by a ci cl ig Hsin Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, ie i if ‘3 smn D.C. 20543).

a

Signature:

Date: 9/16/21 Cj ee

(Type or print) Name (David J. Bodney
© wr. O Ms. O Mrs. O Miss
Firm Ballard Spahr LLP
Address 1 East Washington Street, Suite 2300
City & State |Phoenix, Arizona Zip |85004-2555
Phone 602.798.5454 Email |bodneyd@ballardspahr.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Bobby Wilson
ce:
